QUALITY CONTROL REVIEW OF CONTROLS
OVER THE ENTERPRISE SERVICES CENTER
         Department of Transportation

         Report Number: QC-2011-001
         Date Issued: October 5, 2010
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Controls                                Date:    October 5, 2010
           Over the Enterprise Services Center,
           Department of Transportation
           Report No. QC-2011-001

  From:    Earl C. Hedges                                                         Reply to
                                                                                  Attn. of:   JA-20
           Acting Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           This report summarizes the results of our annual review of general, application,
           and operational controls over the Department of Transportation's (DOT)
           Enterprise Services Center (ESC). As a Federal service provider, the ESC
           provides financial management support services to Federal agencies, including
           accounting, financial management, systems and implementation support services,
           customer services, and telecommunications and data center services. In addition
           to DOT, the Center supports the National Endowment for the Arts, the Institute of
           Museum and Library Services, the Commodity Futures Trading Commission,
           Consumer Products Safety Commission, National Credit Union Administration,
           and the Government Accountability Office. It is staffed by Federal Aviation
           Administration (FAA) employees at the Mike Monroney Aeronautical Center in
           Oklahoma City, under the direction of DOT's Chief Financial Officer.

           The Office of Management and Budget (OMB) requires Federal service providers
           either to (1) provide their user organizations with independent audit reports on the
           design and effectiveness of internal controls, or (2) allow user auditors to perform
           tests of controls at the service organizations. 1 This audit covered both the Delphi
           Financial Management System 2 and the Consolidated Automation System for
           Time and Labor Entry (CASTLE) hosted at the ESC. CASTLE is used to support
           DOT operations only.


           1
            OMB Memorandum M-08-24
           2
            The Delphi system includes ESC PRISM, a federal acquisition system.
                                                                                  2


Clifton Gunderson, LLP, of Calverton Maryland, completed this audit under
contract to the Office of Inspector General (OIG). OIG staff performed a quality
control review of the firm's audit work to ensure that it complied with generally
accepted government auditing standards and the American Institute of Certified
Public Accountants' Statement on Auditing Standards-70 (SAS-70). SAS-70
requires auditors to determine whether or not service organizations: (1) fairly
described their controls; (2) suitably designed the controls; and (3) effectively
implemented the controls. Our review disclosed no instances in which Clifton
Gunderson did not comply in all material respects with applicable auditing
standards.

Clifton Gunderson concluded that ESC described its controls fairly in all material
respects, and that the controls were suitably designed to meet stated control
objectives. Clifton Gunderson also found that the tested controls operated with
sufficient effectiveness to provide reasonable, but not absolute, assurance that the
control objectives specified by management were achieved from October 1, 2009
through June 30, 2010. However, the firm also found that ESC's configuration
management controls did not operate effectively and impacted the Center's access
controls. Specifically, the Delphi system operated on a database for which the
vendor stopped providing security updates in February 2009. Furthermore, ESC
did not apply in a timely manner critical security updates that the vendor had
provided, and did not assess the system for vulnerabilities and risks associated
with the vulnerabilities. Clifton Gunderson's recommendations to correct these and
other control deficiencies appear in the Exhibit to this report.

In his September 29, 2010, response to OIG, the Deputy Chief Financial Officer
concurred with the recommendations and committed to implementing corrective
actions (see the Appendix in this report).

In accordance with DOT Order 8000.1C, the corrective actions taken in response
to Clifton Gunderson's recommendations are subject to follow-up. Clifton
Gunderson performed additional testing and provided a follow-up management
letter to OIG dated September 30, 2010, reporting no significant changes to the
control environment between July 1 and September 30, 2010. Clifton Gunderson's
follow-up letter did not include any further corrective actions.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (410) 962-1729 or Nathan Custer, Program Director, at (202)
366-5540.
                                                                3


Attachments

                                       #


cc: Chief Information Officer, DOT
    Deputy Chief Financial Officer, DOT
    Assistant Administrator for Financial Services/CFO, FAA
    Assistant Administrator for Information Services/CIO, FAA
    Assistant Administrator for Region/Center Operations, FAA
    Director, Mike Monroney Aeronautical Center, FAA
    Martin Gertel, M-1
    Anthony Williams, AAE-001
                                                                               4




EXHIBIT. RECOMMENDATIONS OF CLIFTON GUNDERSON, LLP,
INDEPENDENT AUDITOR
Clifton Gunderson LLP made the following recommendations during its review of
general, application, and operational controls over the DOT ESC in fiscal year
2010. OIG agrees that DOT management should implement the following actions
to enhance ESC controls.

                          Configuration Management
     Promptly upgrade Delphi's operating system platform to an Oracle certified
 1
     operating system.
 2   Apply software security patch releases on a timely basis.
     Ensure the system's authorizing official is promptly informed and a risk
     acceptance is received for any critical or high vulnerabilities that are not
 3   addressed. If the risk acceptance lapses, or the situation changes, the
     authorizing official should renew the acceptance of the risk. Closed in
     follow-up.
     Follow Federal and Department guidance in applying critical patch updates
 4
     on the required timelines.
                                Access Controls
     Implement effective authentication and authorization controls for the audit
 5
     log server. Closed in follow-up.
     Implement proper mechanisms to track all contractors who separate from
 6
     the ESC. Closed in follow-up.
     Enforce contract clause requiring contractors to communicate in a timely
 7
     manner all terminated employees. Closed in follow-up.
                             Security Management
     Ensure the CASTLE information system security plan is updated to reflect
 8   current operating procedures and any changes made are reviewed in a timely
     manner. Closed in follow-up.




Exhibit. Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                         5




APPENDIX. MANAGEMENT COMMENTS




                              September 29, 2010


MEMORANDUM TO:                Earl Hedges
                              Acting Assistant Inspector General
                              for Financial and Information Technology Audits

FROM:                         David J. Rivait
                              Office of the Assistant Secretary for Budget and
                              Programs/Deputy Chief Financial Officer

SUBJECT:                      Management Response to the SAS 70 Audit of ESC’s
                              Services Information Security Controls


The Department provides diligent oversight as it works to ensure the quality, accuracy,
and integrity of the services provided by the Enterprises Services Center (ESC). The
Office of Inspector General’s (OIG) annual SAS 70 audit is as administered this year by
its contractor, Clifton Gunderson (CG) is integral to these efforts. Once again this year
the audit offers considerable insights and fresh perspectives that enable us to further
improve our already strong management and controls over financial systems in this ever-
changing cyber security environment.

CG issued a qualified opinion on the SAS-70 audit stating that the Delphi database was
unsupported; however, upon further detailed review, we have determined that the
software remains supported by Oracle and will continue to be until we move the system
to an updated version of the software. Subsequent to CG’s report, we provided the OIG
with detailed documentation including statements by Oracle regarding system support
and our analysis. That analysis determined the Delphi environment is fully supported by
Oracle and has never been in a non-support status. This conclusion was confirmed
through our discussions with, and documentation provided by Oracle. The current Delphi
process of mitigating user and system controls will continue to address any vulnerabilities
including unauthorized database access, service disruption, data loss or manipulation. As
a result, while the Department is planning to upgrade Delphi’s operating system, the
existing operating system will continue to be supported through the upgrade. We will
continue working through this issue with the OIG to convey a full appreciation of the
issues, the status of ongoing operations and our plans moving forward.




Appendix. Management Comment s
                                                                                        6


The Department concurs with CG’s other recommendations and has identified corrective
actions to remediate the findings. Consistent with past practices, ESC has worked with
the auditors throughout this year’s SAS 70 audit to identify and schedule corrective
actions as audit findings are documented, to ensure swift and appropriate management
action. These corrective action plans will be forwarded to you under separate cover prior
to October 1, 2010.

As a Federal Shared Service Provider (FSSP) designated by the Office of Management
and Budget (OMB) to provide a state-of-the-art financial system and quality accounting
services to other Federal agencies, ESC has demonstrated its strong commitment to
ensuring that it’s Financial Management Services meet or exceed all information security
requirements.

Thank you for your continuing support and assistance in this effort.



cc:
Maria Dowds, Joann Adam, Laurie Park, Wendy Calvin, Marshal Gimpel, Mike Upton,
Keith Burlison, Bo Peeler, Steve Aube, Janet Shell, Nina Boyle, Kent Mitchell




Appendix. Management Comment s
